1

No.
/

CD

Uj.

(HS

1

IN THE
SUPREME COURT OF THE UNITED STATES

Pablo Enrique Rosado Sanchez - Petitioner
v.
7S

Banco Santander Puerto Rico - Respondent

ON PETITION FOR WRIT CERTIRARI TO

FILED
JUL 0 8 2020
i5^EEM0EFCT0H^R.K

U.S. Court of Appeals for the First Circuit
)

Petition for Writ of Certiorari
Pablo Enrique Rosado Sanchez
name
Urb. Levittown, 1093 Paseo Damasco
address
Toa Baja, P.R. 00949
City, State, Zip Code

787-902-7153
phone number

O n'ct i locxf

.s.

Questions Presented
1. By re-affirming the final opinion of the magistrate judge from the District Court,
"The Court does not weigh the evidence", 3 Appellate Judges said
verifiable evidence has no importance.
This establish the basis for false defenses toward clear violations
against fair Laws like the Fair Credit Reporting Act, committed by
multimillionaire banks with lots of resources most people don't possess.
It shows the one with more money is correct,
no matter evidence shows is completely wrong?
Issue beyond the facts; Public Interest, Supreme Court Rules: Rule 10
Guide for Prospective Indigent Petitioners for Writs of Certiorari, Page 1

2.

To write in 2 separate Documents, their Appellate Corrected Judgment,
and on their Judgment, that they did "a careful review",
does not present clearly why, each piece, point by point, of all the verifiable
evidence discarded by Judge McGiverin, was also disregarded by
3 Appellate Judges, because all evidence submitted is verifiable.
Issue beyond the facts, Public Interest
Guide for Prospective Indigent Petitioners for Writs of Certiorari, Page 1

3. Having 3 Appellate Judges at the First Circuit re-affirming
an unreasonable final opinion like the one from Judge McGiverin,
is a clear sign of corruption, and a deviation of regular Court Procedures.
Issue beyond the facts, Public Interest
Guide for Prospective Indigent Petitioners for Writs of Certiorari, Page 1

4. The primary concern of the Supreme Court is not to correct errors in lower
court decisions. But, this unfair actions allowed at 2 lower Courts leave us
with only that option, as a secondary effect, that Judges know won't work?
Supreme Court Rules: Rule 10: Issue beyond the facts, Public Interest
Guide for Prospective Indigent Petitioners for Writs of Certiorari, Page

5. Question number 2 says, there are 2 separate documents
filed on June 30 2020. One is called "Judgment", the other was called
"Corrected Judgment", but the only difference is, the first one
includes a list of more than 60 people that were not related
to my Appeal at all: Is possible this Appeal, might not have been read at all?
Supreme Court Rules: Rule 10, issue beyond the facts; Public Interest
6. Appellate Judges assigned to review my Appeal, include Judges
which I included in my previous complaint for Judicial Misconduct
including the Chief Judge, who dismissed my complaint.
Judge Garcia Gregory made false accusations saying I was not complying
with the Rules, when I was claiming my Right to proceed Pro Se,
rejecting the unfair 30 days freeze of the procedures, and I presented evidence
of unfair intimidation and discrimination on the part of Judge Garcia Gregory,
and Judge Velez Rive, who didn't allowed me to enter to her Chambers
the date I was required to be there, because, "only attorneys were allowed?"
This Case was negatively affected without justification from the start,
because I claimed my Right to proceed Pro Se, and Judicial Misconduct Law.
Under this circumstances, there is no justification to wait to see
if they grant, at their sole discretion? an additional full review.
Is not ethical they re-evaluate this Case under this circumstances.
There are too many unnecessary delays.
i

Supreme Court Rules: Rule 10, Issue beyond the facts; Public Interest; Rule 56, h
Federal Rules of Civil Procedure

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition
is as follows:
RELATED CASES as shown at P.A.C.E.R. regarding this specific case
Appeal No. 17-2105; Case No. 3:16-cv-02029-GAG-SCC, at U.S. District Court of
Puerto Rico against Puerto Rico Department of Education, Puerto Rico Department
of the Family, and the Puerto Rico Department of Labor and Human Resources;
Currently waiting for Suspension of Rules Request, at U.S. Court of Appeals for the
First Circuit, where Appellate Judges keep denying my Right to have
this Appeal fully reviewed, in spite of even recent Retaliation evidence they keep
ignoring.
It arrived for Unsupported findings or Conclusion. Appeal brought by myself as
Appellant for all the Unnecessary Delays created by not only the Defendant
and their different attorneys assigned, but by Magistrate Judge Silvia Carreho.
It was described as the Lead Case at the First Circuit.

TABLE OF AUTHORITIES
STATUTES AND RULES

Fair Credit Reporting Act
The federal Fair Credit Reporting Act (FCRA) promotes the accuracy, fairness, and
privacy of information in the files of consumer reporting agencies. There are many
types of consumer reporting agencies, including credit bureaus and specialty
agencies (such as agencies that sell information about check writing histories,
medical records, and rental history records). Learn more about your major rights
under the FCRA.

Fair Debt Collection Practices Act (FDCPA)
The Fair Debt Collection Practices Act (FDCPA) is the main federal law that governs
debt collection practices. The FDCPA prohibits debt collection companies from
using abusive, unfair or deceptive practices to collect debts from you. Read more
information on your rights under the FDCPA.
Website:
https://www.consumerfinance.gov/consumer-tools/credit-reports-andscores/answers/kev-terms/#fair-credit-reporting-act
https://www.consumerfinance.gov/consumer-tools/debt-collection/answers/kevterms/#fair-debt-collection-practices-act-fdcpa

TABLE OF CONTENTS

OPINIONS BELOW

Page 1

JURISDICTION

Page 2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Pages 3 - 8

STATEMENT OF THE CASE

Pages 8 -10

REASONS FOR GRANTING THE WRIT

Pages 11 -13

CONCLUSION

Page 14

INDEX TO APPENDICES
Appendix A.
Appendix B.
Appendix C.
Appendix D.

Corrected Judgment
Judgment
Opinion and Order
Requesting Suspension of Rules:

June 30, 2020
June 30, 2020
July 24, 2019

Abusive Corrected Judgment
Appendix E. Interrogatory
Appendix F.
2nd Brief:
pages identified as App. F with page number
Appendix G. Santander Bank of Puerto Rico
prohibited me to pay the loan
Appendix H. Santander Bank of Puerto Rico

July 2, 2020
September 5, 2018
October 9, 2019

March 13, 2020

returned my 3/12/2020 loan payment
Appendix i. 1 Letter from Collection Agency Law Firm;
other recognizing Agreement;

March 24, 2020
April 19, 2017
June 7, 2017

IN THE

Page 1

SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ X] For cases from federal courts: Case 19-1811,17-2124 (3:17-cv-02169-BJM)
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
_________________________________________ ; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
_______________________________;_______
[ ] has been designated for publication but is not yet reported; or,

to

; or,

X

[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _
to the petition and is
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

; or,

i

The opinion of the
appears at Appendix

court
to the petition and is

[ ] reported at
__
; or,
[ ] has been designated for publication but is not yet reported; or, [ ] is
unpublished.

JURISDICTION
[ X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
limp an ?n?n
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
_______
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
in Application No.
A

(date)

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
______ .
[ ] A timely petition for rehearing was thereafter denied on the following date:
'___________________
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including ____
(date) in
(date) on
Application No. __ A

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Page 2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
A Summary of Your Rights under the Fair Credit Reporting Act
The federal Fair Credit Reporting Act (FCRA) promotes the accuracy, fairness,
and privacy of information in the files of consumer reporting agencies.
There are many types of consumer reporting agencies, including credit bureaus
and specialty agencies (such as agencies that sell information about check writing histories,
medical records, and rental history records).
Here is a summary of your major rights under the FCRA.
For more information, including information about additional rights, go to
www.consumerfinance.gov/learnmore or write to: Consumer Financial Protection Bureau,
1700 G Street N.W., Washington, DC 20552.
• You must be told if information in your file has been used against you.
Anyone who uses a credit report or another type of consumer report to deny your application
for credit, insurance, or employment - or to take another adverse action against you
- must tell you, and must give you the name, address, and phone number
of the agency that provided the information.
• You have the right to know what is in your file. You may request and obtain
all the information about you in the files of a consumer reporting agency
(your "file disclosure"). You will be required to provide proper identification,
which may include your Social Security number. In many cases,
the disclosure will be free. You are entitled to a free file disclosure if:
• a person has taken adverse action against you because of information in your credit report;
• you are the victim of identity theft and place a fraud alert in your file;
• your file contains inaccurate information as a result of fraud;
• you are on public assistance;
i
• you are unemployed but expect to apply for employment within 60 days.
In addition, all consumers are entitled to one free disclosure every 12 months
upon request from each nationwide credit bureau and from nationwide
specialty consumer reporting agencies.
See www.consumerfinance.gov/learnmore for additional information.

Page 3

• You have the right to ask for a credit score. Credit scores are numerical summaries

of your credit-worthiness based on information from credit bureaus.
You may request a credit score from consumer reporting agencies that create scores
or distribute scores used in residential real property loans, but you will have to pay for it.
In some mortgage transactions, you will receive credit score information for free
from the mortgage lender.
• You have the right to dispute incomplete or inaccurate information.
If you identify information in your file that is incomplete or inaccurate, and report it
to the consumer reporting agency, the agency must investigate unless your dispute
is frivolous. See www.consumerfinance.gov/learnmore for an explanation
of dispute procedures.

• Consumer reporting agencies must correct or delete inaccurate, incomplete,
or unverifiable information. Inaccurate, incomplete or unverifiable information
must be removed or corrected, usually within 30 days.
However, a consumer reporting agency may continue
to report information it has verified as accurate.
• Consumer reporting agencies may not report outdated negative information.
In most cases, a consumer reporting agency may not report negative information
that is more than seven years old, or bankruptcies that are more than 10 years old.
• Access to your file is limited. A consumer reporting agency may provide
information about you only to people with a valid need -- usually to consider
an application with a creditor, insurer, employer, landlord, or other business.
The FCRA specifies those with a valid need for access.
• You must give your consent for reports to be provided to employers.
A consumer reporting agency may not give out information about you to your employer,
or a potential employer, without your written consent given to the employer.
Written consent generally is not required in the trucking industry.
For more information, go to www.consumerfinance.gov/learnmore.
• You may limit "prescreened" offers of credit and insurance you get based
on information in your credit report. Unsolicited "prescreened"
offers for credit and insurance must include a toll-free phone number
you can call if you choose to remove your name and address

Page 4

from the lists these offers are based on.
You may opt out with the nationwide credit bureaus at 1-888-5-OPTOUT (1-888-567-8688).
• You may seek damages from violators. If a consumer reporting agency, or, in some cases,
a user of consumer reports or a furnisher of information to a consumer reporting agency
violates the FCRA, you may be able to sue in state or federal court.
• Identity theft victims and active duty military personnel have additional rights.
For more information, visit www.consumerfinance.gov/learnmore.
States may enforce the FCRA, and many states have their own consumer reporting laws.
In some cases, you may have more rights under state law. For more information,
contact your state or local consumer protection agency or your state Attorney General.
For information about your federal rights, contact:
The Fair Debt Collection Practices Act (FDCPA)
The Fair Debt Collection Practices Act (FDCPA) is the main federal law that governs
debt collection practices. The FDCPA prohibits debt collection companies from using abusive,
unfair or deceptive practices to collect debts from you
The FDCPA covers the collection of:
Mortgages
Credit cards
Medical debts
Other debts mainly for personal, family, or household purposes.
The FDCPA does not cover business debts. It also does not generally cover collection
by the original creditor to whom you first became indebted. Evidence of false business credit
card.
i
!
Under the FDCPA, debt collectors include collection agencies, debt buyers, and lawyers
who regularly collect debts as part of their business. There are also companies that buy pastdue debts from creditors or other businesses and then try to collect them. These debt
collectors are also usually called debt collection agencies, debt collection companies, or debt
buyers.
Page 5

Restrictions on communications by debt collectors when collecting a debt.
Time and place. Generally, debt collectors may not contact you at an unusual time or place,
or at a time or place they know is inconvenient to you, and they are prohibited
from contacting you before 8 a.m. or after 9 p.m. Also if a debt collector knows
that you're not allowed to receive the debt collector's communications at work,
then the debt collector is not allowed to contact you there.
Harassment.
Debt collectors may not harass you or anyone else, over the phone or through any other form
of contact.
Representation by attorney. If a debt collector knows that an attorney is representing you
about the debt, the debt collector generally must stop contacting you, and must contact the
attorney instead.
This is only true if the debt collector knows, or can easily find out, the name and contact
information of your attorney. If an attorney is representing you and a debt collector calls, tell
them which attorney is representing you and that the debt collector should contact the
attorney, not you.
Tip: The CFPB has prepared sample letters that you can use to respond to a debt collector
who is trying to collect a debt. Our letters include tips on how to use them.
The sample letters may help you to get information, set limits or stop any further
communication, or protect some of your rights. Always keep a copy of your letter for your
records.
If you tell a debt collector in writing to stop contacting you, the debt collector can't contact
you again except to: Say there will be no further contact
Notify you that the debt collector or the creditor may take certain specific action
it is legally allowed to take, such as a lawsuit against you
Warning: Telling a debt collector to stop contacting you does not prevent the debt collector
from pursuing other legal ways to collect the debt from you if you owe it,
including a lawsuit against you or reporting negative information to a credit reporting
company.
Page 6

Any debt collector who contacts you claiming you owe payment on a debt is required by law
to tell you certain information about the debt.
That information includes:
The name of the creditor
The amount owed
That you can dispute the debt
That you can request the name and address of the original creditor, if different from the
current creditor If the debt collector doesn't provide this information when they first contact
you, they are required to send you a written notice including that information within five days
of the initial contact.
You can dispute all or part of the debt. You can also ask for more information if you are unsure
you owe money to a creditor, or how much you might owe.
If you dispute all or part of a debt in writing within 30 days of when you receive
the required information from the debt collector, the debt collector cannot call
or contact you to collect the debt or the disputed part until the debt collector has provided
the verification of the debt in writing to you.
You can also request that the creditor give you the name and address of the original creditor.
If you make that request in writing within 30 days, the debt collector has to stop all debt
collection activities until the debt collector provides you that information. If you don't
recognize the name of the creditor, ask if it might have purchased the debt from another
company and, if so, what the name of that company is.
When you get the requested information or the response to your dispute from the debt
collector, see if your own records agree with the information the debt collector provided.
The Fair Credit Reporting Act
There are other important federal laws as well. The federal Fair Credit Reporting Act
covers how financial matter, including debt collections can be reported in your credit report.
There are also federal consumer financial protection laws that prohibit unfair, deceptive,
or abusive acts or practices that apply to debt collectors, as well as creditors.
Page 7

Tip: Put it in writing. A good practice is to confirm your requests with the debt collector by
mailing a written letter. Keep a copy of your letter, showing the date you wrote it,
so that you have a record of you.
Page 8
Statement of the Case
Provide a concise statement of the case containing the facts material to the consideration of the question(s)
presented; you should summarize the relevant facts of the case and the proceedings that took place in the lower
courts. You may need to attach additional pages, but the statement should be concise and limited to the relevant
facts of the case.

1. Question No. 1 presents the Main Issue: having the magistrate judge assigned
at the District Court of Puerto Rico, writing in his final opinion
that the Court does not weigh the evidence. All of them at the District Court, noted
this Case ended at the Court precisely because of all the verifiable evidence
and all the previous steps I took before filing this Lawsuit, including main credit bureau
Trans Union Letter in which they clearly wrote one of the options was
to file a Lawsuit. See Appendix__C, F
F & F~7 F*& /“*?
0

App.
The credit reports at the 3 main credit bureaus were left without updating
to the most current positive information for the exact months and years of payments,
and this continues until today, against the Law.
See Interrogatory, Appendix F// pages

pp.
2. This Case is really simple: The Law, the Fair Credit Reporting Act, requires financial
institutions like Santander Bank of Puerto Rico to report our accounts with precision
and exactness, but this Case and Appeal was unreasonably complicated
ApP> T~
by the District Judges and the Magistrate Judge unreasonable behavior

App •£-

supporting a false and corrupt statement which was re-affirmed by 3 Appellate Judges
in the same unreasonable way and I quote: "The Court does not weigh the evidence"
There is no legal defense at the Courts if the Judges are allowed to do that,
and if the Court in charge of correcting the errors with their full review allots
that as if that was correct. Is the main question anyone would bring to this Court.
3. Beyond the facts of this specific Case and Appeal, and now Petition, there is something
else more dangerous: The Appellate Judges know the main concern at the Supreme Court
is not to correct errors of lower Courts, but the errors I brought to Court regarding incorrect
credit reports are too evident, clear and simple to see:

knowing this specific errors are not to be corrected
at the Supreme Court,
Judges are leaving us no choice but to try to go
to the Supreme Court to fix this errors,
but knowing is nearly impossible? Rule 10, letter a,
Reasons for Granting Writ
Summary of Concise and Relevant Facts:
a. A Bank can't report I am not paying the same months and years I am paying. See Appendix H

f

q-Fii
FIS

b. If the Santander Loan Account, re-started to receive its regular monthly payment

last August 29, 2016, that is exactly what the credit reports at the 3 main credit bureaus
have to say. That is the Law: Santander internal policies are not the Law to follow.

Jrpp. E

c. If a full payment of $2,065.20 was made to this same loan account last May 26, 2017
and because this $2,065.20 updated in full the balance of this loan that is what they had
to report since May 26 2017 and that the loan is Paid as Agreed since that specific date:
But that is not what took place, even as of today. See Appendix F /S~
p7/ £ F- 7 /
d. This loan was paid only to Santander Bank of Puerto Rico, not to any collection agency,Ftf 3
never, Santander Bank of Puerto Rico is not a collection agency, but the bank
where this 2 accounts in questions were originated. See Appendix
F~ 3S"^
e. A Fully Updated Loan account updated and paid at the same Bank this same loan
was originated, is totally incorrect to report it as "Failed to Pay", "Under collection",
and "Profit Loss". A pp •
3S", P*3 4
f. The Santander Master Card Credit Card regular monthly payments re-started
by August 29 2016, month after month: a few days delay with my December 2016
payment, was informed fast to Mrs. Ibimarie Reyes through Santander Bank of Puerto Rico
internal communications a letter explaining this sent using the internal mail system.
I explained Mrs. Ibimarie Reyes the unexpected situation of having my employer
not paying me the usual Christmas Bonus Check on December 2016, this created a dela
F\?9
but the payment was made. Ibimarie Reyes never responded: See Appendix

fw-fhs
g. Just days after my payment for December 2016 was made and after the letter was sent,
Yalimar Reyes called by phone offering a Payment Arrangement for the Master Card Credit
Card, which I accepted, because Yalimar Reyes was also an authorized Santander Bank
Representative, like Ibimarie Reyes. App . F 37
Ft 3
Page 9

This Payment Agreement I accepted over the phone, on January 5 2017,
included only the following: - A $128.00 monthly payment for the credit card,
to be made any day of the month by myself;
48 monthly payments of $128
1 last payment of a reduced amount
The Payment Agreement will be certified
with my first payment of $128.00
which I informed Yalimar Reyes
I will start to pay 7 days after, on January 12, 2020
This same Certified Payment Agreement does not include the following,
that was not even mentioned during the phone call with Yalimar Reyes,
and does not appear written in the Santander Bank Official Letter certifying
this Payment Agreement, dated January 12, 2017, same date I made its 1st $128 payment:
There was no option in the Letter certifying the agreement to allow,
or verbally informed by Yalimar Reyes on January 5, 2017
Santander Bank of Puerto Rico could sell this credit card account
to a Collection Agency.
Ptpp. F
- F 3$t f-\~7
If Yalimar Reyes had informed me on that same date, Jan. 5 2017, when she offered
that Payment Agreement, before I decided to accept it, A fp. FS7j F
^
I would have simply reject it and continue with the usual monthly payments.
This certified payment agreement allows me to pay this same credit card debt faster,
as I wanted, that was the reason for me to accept it.
Even the Collection Agency Law Firm recognized this Payment Agreement
and closed the Case. See Appendix^
I

FiH} F/7
h. When Santander Bank prohibited me to keep paying the monthly payment
of the personal loan, and returned this same regular monthly payment I made
last March 12, 2020 by regular mail, ignoring my complaint filed the same day
through the Bank Officer Mr. Ivan Diaz, it was more than clear the Bank
has internal policies violating the Fair Credit Reporting Act and the Fair Debt Collection Act.
See Appendix
f-f______
Page 10

REASONS FOR GRANTING THE PETITION
Reasons: "(a) or (a United States court of appeals) has so far departed from the accepted and
usual course of judicial proceedings, or sanctioned such a departure by a lower court, as to call
for an exercise of this Court's supervisory power;
" (c) a state court or a United States court of appeals has decided an important question of
federal law that has not been,
but should be, settled by this Court, or has decided an important federal question in a way
that conflicts with relevant decisions of this Court.
Quote from https://www.law.cornell.edu/rules/supct/rule_10,
Rule 10. Considerations Governing Review on Writ of Certiorari
Appellate Judges are using like a judicial discretion to re-affirm an irresponsible opinion
from a magistrate judge at the District Court of Puerto Rico, in which
I received Judge McGiverin Final Opinion, saying the court does not weigh the evidence.
What would happen, if any of us go to Court, BUT WITHOUT EVIDENCE?
Any of us including me could easily be accused of presenting false statements
under penalty of perjury.
All the evidence I brought to the Courts is verifiable, that is why it is not questionable,
but Judges are dismissing the evidence as if it is something not important.
This is more than enough to grant my petition for review at this Supreme Court of the United
States.
The same Judges are not defending we go to Courts with evidence, that is against
Rule 10, letters a and c.
i

Page 11

Additional Reasons to Grant Review on a Writ of Certiorari: National Importance

This is of importance for all of us living here in Puerto Rico, no matter they believe
we should be granted by the Congress an admission as a State of the Union or not:
Since when the verifiable evidence does not count, and has no weigh?
And does not count at the Review Court, for 3 different Appellate Judges either?
All of this Judges are still considered qualified to do precisely this job,
none of them is disabled, blind, or have any condition limiting his or her capabilities.
All of us want to know:
What is going on?
The unreasonable behavior of a District Judge, Garcia Gregory, fabricating accusations
without any verifiable evidence, saying I was not following the Court Rules, but was false:
I was proceeding Pro Se, responding to Court Motions as soon as next day or the same day
if possible because I was at the Office of the Clerk, and had the chance to file my response
in handwriting before Clerk's Office closing.
Judges are not to use their authority to impose the Pro Bono Program, specially
when the Plaintiff was rejecting formally and in writing with the appropriate motion
that imposed Pro Bono appointment.
I felt this Case I took to the District Court of Puerto Rico, was marked since the beginning
by this fact, not an opinion: proceeding Pro Se is not well seen by Judges at the District Court,
and using Judge Garcia Gregory own words, "the Judicial Economy" feels threaten
when anyone decides to represents by himself or herself, especially after seeing
things that happens with the Pro Bono Program:
That attorney, no matter who he or she is, is paid by someone else, not the Plaintiff,
the Plaintiff does not even select the attorney:
P. 12
That attorney, might not even want to read the Lawsuit prepared by the Plaintiff
as I saw in my other Appeal, and could recommend things that will make the time

to present our Case in Court expire, no matter, he or she could believe
is doing his or her job? but not representing us, but been paid by a recognized
Lawyers firm, anyway?
I bring this because Judge Velez Rive at the District Court also view this Case for some time,
but she did not allowed me to enter to her chambers or office, but the precise date
I was appointed to be there by the District Judge? Yes, that took place, and the reason
she sent to inform, me through a security guard, was unreasonable:
"Only attorneys were allowed."
\

There is no respect for the Pro Se Right to represent ourselves, no matter is still recognized
by the Supreme Court. Is it because they believe that is at the Supreme Court
but not at their District Court?
There were imminent threats of making me pay expenses by the Bank's Attorney,
who was not their first attorney, Vanessa Munoz, but the second one, Erasmo Reyes.
Banco Santander of Puerto Rico decided to hire a second attorney, not even keeping
the same one who was attending my complaints at the Consumer Financial Protection Bureau,
creating an additional delay.
This is other thing not respected at the District Court at all:
The Rule against Bad Faith and or Unnecessary delays, when it was totally unnecessary
to freeze this same Case for 30 days until I spoke with a Pro Bono Attorney named
Mrs. /Miss Natalia Palmer, who I rejected before she was appointed: next day after I saw
this same Case was paralyzed for 30 days by a motion from the original Judge,
Pedro Delgado Hernandez. Next day I filed my Motion insisting I was representing me
as Pro Se without the Pro Bono Program, but it was ignored.

Page 13

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

i~—luuuSs&ci cJLsdu'iicXf;*
Date:

OJedhesda-y 4 Zfo/o g ZO^O

Page 14

